HHS/OIG-Audit--"Medicaid Fee-for-Service Payments for Services on Behalf of Beneficiaries Enrolled in Medicare Health Maintenance Organizations, (A-04-97-01168)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Fee-for-Service Payments for Services on Behalf of Beneficiaries Enrolled in Medicare Health Maintenance
Organizations," (A-04-97-01168)
December 20, 1999
Complete
Text of Report is available in PDF format (1.35 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Florida made Medicaid payments to providers for services to dually eligible beneficiaries
that should have been covered by Medicare health maintenance organizations (HMOs). Based on a statistical sample, we estimate
improper Medicaid payments of at least $2.6 million (Federal share) in calendar year 1996 for medical services and supplies
that should have been paid by the Humana HMO. Based on another statistical sample, we estimate improper Medicaid payments
at $6.2 million (Federal share) in 1996 that should have been paid by an additional 50 Medicare HMOs in Florida. The improper
payments occurred because the Florida Medicaid agency did not utilize Medicare coverage data from a Health Care Financing
Administration (HCFA) database to identify beneficiaries who were enrolled in Medicare HMOs and preclude Medicaid payments
for services covered by the HMOs. We recommended financial adjustments and procedural corrections. The State has taken
steps to add the Medicare coverage data from the HCFA database to the State's third party resource database.